        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Connecticut Department of Energy
and Environmental Protection 
Energy Efficiency and Conservation
Block Grant Program Funds
Provided by the American Recovery
and Reinvestment Act of 2009




OAS-RA-13-14                        February 2013
                                 Department of Energy
                                   Washington, DC 20585
                                      February 28, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY




FROM:                   Rickey R. Hass
                        Deputy Inspector General
                          for Audits and Inspections
                        Office of Inspector General

SUBJECT:                INFORMATION: Examination Report on "Connecticut Department of
                        Energy and Environmental Protection − Energy Efficiency and
                        Conservation Block Grant Program Funds Provided by the American
                        Recovery and Reinvestment Act of 2009"

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an examination of the Connecticut Department of
Energy and Environmental Protection's (Agency) implementation of the American Recovery and
Reinvestment Act of 2009 (Recovery Act) Energy Efficiency and Conservation Block Grant
(EECBG) Program. The Office of Inspector General (OIG) contracted with an independent
certified public accounting firm, Lopez and Company, LLP, to express an opinion on the
Agency's compliance with Federal laws, regulations and program guidelines applicable to the
EECBG Program.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the EECBG
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors. The Agency received a $9.6 million formula grant award that was to
be expended over a 3-year period from September 14, 2009 through September 13, 2012.

OBSERVATIONS AND CONCLUSIONS

Lopez and Company, LLP, expressed the opinion that except for the significant deficiencies
described in its report, the Agency complied in all material respects with the aforementioned
requirements and guidelines relative to the EECBG Program for the period September 14, 2009
through December 31, 2011. Specifically, the Agency did not receive certified payrolls on a
weekly basis, as required, to ensure timely review of sub-grantee contractors' compliance with
Davis-Bacon Act wage requirements. Additionally, the Agency reported inaccurate and
                                                2

unsupported information on jobs created and retained for one quarter we reviewed. Further, the
Agency failed to ensure sub-grantees were compliant with Federal requirements for recording
and controlling fixed assets.

The report makes recommendations to the Agency to improve the administration of its EECBG
Program. The Agency provided comments that expressed general disagreement with the
findings and recommendations, but noted corrective actions it intended to take to address the
issues identified. The Department of Energy (Department) needs to determine whether the
planned corrective actions were adequate and ensure the recommendations outlined in the report
are implemented.

RECOMMENDATION

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy
require the Agency to improve the administration of its EECBG Program by ensuring it
implements the recommendations outlined in the report and, where appropriate, evaluate the
actions proposed or taken by the Agency to address the issues identified.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendation and has been working with the Agency to
ensure that all corrective actions are implemented. The Department stated it will continue to
support the Agency through ongoing monitoring by the cognizant Project Officer to ensure the
Agency reviews sub-grantee jobs data and complies with other appropriate regulations. Further,
the Agency had completed a review of all Davis-Bacon certified payrolls. The Department's
comments are included in their entirety in Attachment 2.

The Department's comments are responsive to our recommendation.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants, as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
Agency's policies and procedures and reviewing applicable EECBG Program documentation.
The procedures also included an analysis of activity progress, reimbursement drawdown
requests, and compliance with required reporting. Finally, an analysis of associated expenditure
data was conducted to test the allowability of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Lopez and Company, LLP, did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP, is
responsible for the attached report dated December 26, 2012, and the conclusions expressed in
the report.
                                        3

Attachments

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                                        Attachment 1




                           EXAMINATION REPORT ON COMPLIANCE

                                                                  OF

        Recovery Act Energy Efficiency and Conservation Block Grant Program

      State of Connecticut – Department of Energy and Environmental Protection

                                                             ____

                                                 PERFORMED FOR

                                    U.S. DEPARTMENT OF ENERGY
                                   OFFICE OF INSPECTOR GENERAL


                                                        Prepared by

                                            Lopez and Company, LLP

                                       Report Date: December 26, 2012




                                CONTRACT NUMBER: DE-IG0000017

                                   WORK ORDER NUMBER: 2011-09

14728 Pipeline Avenue▪ Suite E ▪ Chino Hills ▪ California 91709
Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
                                                                                                  Attachment 1 (continued)




                                                     Table of Contents



INDEPENDENT ACCOUNTANT'S REPORT ......................................................................... 1

Section I Description of the Connecticut Department of Energy and Environmental Protection
          Energy Efficiency and Conservation Block Grant Program .......................................... 2

Section II Classification of Findings.............................................................................................. 3

Section III Summary of Findings .................................................................................................... 4

Section IV Schedule of Findings .................................................................................................... 5

Section V Management Response ................................................................................................11




                                                                                                 Lopez and Company, LLP
         Attachment 1 (continued)




Page 1   Lopez and Company, LLP
                                                                        Attachment 1 (continued)

         Section I Description of the Connecticut Department of Energy
                and Environmental Protection Energy Efficiency
                    and Conservation Block Grant Program
The Connecticut Department of Energy and Environmental Protection (Agency) is charged with
making energy cheaper, cleaner and more reliable for the residents and businesses of the state.
The Agency is also committed to playing a positive role in rebuilding Connecticut's economy by
creating jobs that foster a sustainable and prosperous economic future for the state.

Under the Energy Efficiency and Conservation Block Grant (EECBG) Program, grantees receive
assistance in developing, promoting, implementing and managing energy efficiency and
conservation projects and programs. These projects and programs are designed to reduce fossil
fuel emissions, reduce total energy use of the eligible entities, and improve energy efficiency in
the transportation, building and other appropriate sectors. As part of the American Reinvestment
and Recovery Act of 2009 (Recovery Act), the U.S. Department of Energy's (Department) Office
of Energy Efficiency and Renewable Energy received $3.2 billion in EECBG Program funding.
Of this amount, $2.7 billion was awarded through formula grants and $454 million was allocated
through competitive grants.

The Agency received a $9.6 million formula EECBG grant award, to be expended over a 3-year
period from September 14, 2009 through September 13, 2012. It allocated these funds to local
governments to implement programs that reduce fossil fuel emissions in a manner that is
environmentally sustainable, reduce the total energy use of the entities, and improve energy
efficiency in the building, transportation, and other appropriate sectors.




                                         Page 2                        Lopez and Company, LLP
                                                                          Attachment 1 (continued)

                          Section II Classification of Findings


Material Weakness
For purposes of this engagement, a material weakness is a significant deficiency or combination
of significant deficiencies that results in more than a remote likelihood that a material
misstatement of the subject matter will not be prevented or detected. There were no material
weaknesses contained in this report.

Significant Deficiency
For purposes of this engagement, a significant deficiency is a deficiency in internal control, or
combination of deficiencies, that adversely affects the Agency's ability to initiate, authorize,
record, process, or report data reliably in accordance with the applicable criteria or framework,
such that there is more than a remote likelihood that a misstatement of the subject matter that is
more than inconsequential will not be prevented or detected.

Advisory Comment
For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect the Agency's ability to record, process, summarize, and
report data reliably.
Advisory comments represent matters that came to our attention during the course of the review,
and are offered to the Agency's management as an opportunity for improvement. Advisory
comments, if any, are provided along with recommendations and discussion of the significance
of the comments. There were no advisory comments contained in this report.




                                          Page 3                         Lopez and Company, LLP
                                          DRAFT
                                                                   Attachment 1 (continued)

                           Section III Summary of Findings



Area/Finding


       Significant Deficiencies
Compensation – Davis-Bacon Act
       IV.1    Lack of Sub-Grantee Monitoring for Compliance with the Davis-Bacon Act
Financial Management and Reporting
       IV.2    Jobs Created and Retained Data Were Inaccurate and Unsupported
Fixed Assets
       IV.3    Sub-Grantee Accounting for Fixed Assets Was Not Adequate




                                       Page 4                     Lopez and Company, LLP
                                                                         Attachment 1 (continued)

                             Section IV Schedule of Findings
COMPENSATION – DAVIS-BACON ACT

IV.1    Lack of Sub-Grantee Monitoring For Compliance With the Davis-Bacon Act
        (Significant Deficiency)

Condition

The Agency did not receive certified payrolls on a weekly basis, as required, to ensure timely
review of sub-grantee contractors' compliance with Davis-Bacon Act wage requirements. The
Agency had not required sub-grantees to submit contractor certified payrolls on a weekly basis,
and instead, only required sub-grantees to submit certified payrolls when they requested
reimbursement, which could be monthly, bi-monthly, semi-annually, or even at the end of a
project. The Agency did perform reviews of certified payrolls in conjunction with the sub-
grantees' reimbursement requests. Such requests were not paid until the certified payrolls had
been reviewed and approved. The Agency's procedure, while providing assurance that,
ultimately, all wages were properly paid, was not in compliance with the requirements of the
Davis-Bacon Act.

We requested from the Agency all certified payrolls for 11 sub-grantees. The Agency had to
request copies of these certified payrolls directly from certain sub-grantees since not all had yet
requested reimbursement. After receiving information with respect to nine sub-grantees, the
Agency then asked the remaining two to submit their certified payrolls directly to us. After
several inquiries, we noted one sub-grantee produced certified payrolls that showed no wages
were paid and the other did not respond to our request. The Agency believed the final sub-
grantee was unresponsive because it had not yet sought reimbursement, but could not confirm
whether the sub-grantee was required to collect certified payrolls. Additionally, the two sub-
grantees that were delayed or unresponsive to our request for certified payrolls had also failed to
include required Davis-Bacon Act flow down provisions in their vendor contracts. To note, we
selected a judgmental sample of certified payrolls from the nine to test compliance with Davis-
Bacon Act prevailing rates and concluded that all nine paid appropriate wages.

EECBG Program Guidance 10-04 states that grantees/sub-grantees of a Recovery Act-funded
EECBG Program grant must ensure that all required Davis-Bacon Act provisions are flowed
down to applicable contractors. The guidance also requires all eligible workers on EECBG
Program projects be paid on a weekly basis, and that contractors submit weekly certified payroll
records to the contracting and administering agency, beginning with the first week of the project.

Cause

The Agency delegated its responsibility as the administering agency for Davis-Bacon Act
compliance for the collection, review, and initial retention of certified payrolls to sub-grantees.
Agency officials believed that the sub-grantees were capable of monitoring Davis-Bacon Act
compliance. Further, the Agency did not have a process in place to identify (1) whether sub-
grantees were receiving Davis-Bacon Act certified payrolls from contractors in a timely manner;



                                          Page 5                        Lopez and Company, LLP
                                                                          Attachment 1 (continued)

                         Section IV Schedule of Findings (Cont.)
(2) when there were exceptions at the sub-grantee level regarding late submissions; and, (3) what
steps, if any, the sub-grantees had taken to correct any issues identified.

Effect

The failure of the Agency to review certified payrolls on a weekly basis increases the risk that
noncompliance with Davis-Bacon Act requirements will occur and underpayments will not be
corrected in a timely manner.


Recommendation

We recommend the Agency:

1.1      Revise its procedures to require and review the weekly submission of certified payrolls
         by sub-grantees to the Agency in compliance with Davis-Bacon Act requirements.

1.2      Ensure sub-grantees are receiving certified payrolls from its contractors on a weekly basis
         and submitting them to the Agency as required.

Management Response

The Agency did not concur, in part, with the finding, because it believed its overall controls were
adequate to ensure it ultimately complied with the Davis-Bacon Act. The Agency confirmed
they did not interpret the EECBG Program guidance to require weekly submissions of certified
payrolls. Further, they indicated they could not have complied with the requirement due to
insufficient staffing levels.

Auditor Response

We acknowledge in the report that the Agency had a control in place to review certified payrolls
when the sub-grantee requested reimbursement; however, it was not on a weekly basis as
required. Further, as noted in the report, by not conducting timely review of certified payrolls,
noncompliance with the Davis-Bacon Act will not be corrected in a timely manner.




                                          Page 6                         Lopez and Company, LLP
                                                                         Attachment 1 (continued)

                        Section IV Schedule of Findings (Cont.)
FINANCIAL MANAGEMENT AND REPORTING

IV.2     Jobs Created and Retained Data Were Inaccurate and Unsupported (Significant
         Deficiency)

Condition

The Agency reported inaccurate and unsupported information on jobs created and retained for
one quarter we reviewed. The Agency only performed a reasonableness check of labor dollars to
reported jobs, and did not (1) require the sub-grantees to provide supporting documentation to
justify its job reporting, or (2) verify calculations in accordance with the Office of Management
and Budget (OMB) guidance. Specifically, of the 16 sub-grantees in our review, 6 could not
provide support for the jobs reported; therefore, we could not determine whether the information
was accurate. Another 5 of the 16 sub-grantees reported inaccurate job information to the
Agency for the quarter, including 4 sub-grantees that did not calculate their jobs created and
retained data in accordance with the OMB guidance, and one sub-grantee that misreported one
job. Finally, we noted that the Agency had erroneously reported 1.235 jobs for two sub-grantees
that had actually reported no jobs for the quarter.

Section 1512 of the Recovery Act requires grant recipients to report estimates of the number of
jobs created and retained by their Recovery Act projects or activities on a quarterly basis. OMB
Memorandum M10-08 Updated Guidance on the American Recovery and Reinvestment Act –
Data Quality, Non-Reporting Recipients, and Reporting Job Estimated provided guidance for
reporting this information and required that recipients be prepared to justify their estimates. It
further stated that the estimated number of jobs created and retained be expressed in full time
equivalents (FTE) which is done using the actual number of hours worked by personnel divided
by the number of hours in a full work week schedule.

Cause

Because the Agency relied on a reasonableness test and did not require sub-grantees to justify
their estimates, it was not aware of reporting errors until they were identified during this
examination. The Agency stated that, given limited resources, it relied on the sub-grantees for
the determination of jobs created and retained. It believed the sub-grantees understood the
methodology for calculating and reporting jobs created and retained.

Effect

As a result of the inadequate review of sub-grantee calculations of jobs created and retained, the
Agency was unable to use the jobs reporting correction period to resolve the inaccurate data.
Further, the inadequate review increased the risk that the numbers reported in other quarters may
contain inaccuracies that will go undetected. Because one of the goals of the Recovery Act is job
creation, a failure to ensure accurate reporting of such jobs could lead to erroneous conclusions
on the performance of the Recovery Act.


                                         Page 7                         Lopez and Company, LLP
                                                                          Attachment 1 (continued)

                        Section IV Schedule of Findings (Cont.)

Recommendation
We recommend the Agency:
2.1    Require sub-grantees to provide supporting documentation from previous quarters and
       verify that sub-grantees used accepted OMB methodologies and that the calculations are
       accurate; and,
2.2    Determine whether corrections to the previously submitted jobs data are needed.

Management Response

The Agency did not concur with the finding because it believed the controls put in place for the
collection of jobs data, and the process for quality assurance was consistent with the Recovery
Act and OMB guidance. The Agency cited the Recovery Act which required grant recipients to
report estimates of the number of jobs created and retained. The Agency also cited OMB
guidance that stated that there is no mandated methodology for conducting data quality review,
and that to the maximum extent practicable, collection of the data should generate the most
complete job numbers available. The Agency confirmed a reasonableness check was applied to
job numbers provided by its sub-grantees, and noted that given limited staff resources, controls
were implemented to the maximum extent practicable. The Agency stated it will reiterate the
sub-grantees' responsibility to ensure the quality of jobs estimates through the issuance of a post-
grant award closeout letter.

Auditor Response

Although OMB guidance does not mandate a methodology to conduct a data quality review,
without requiring supporting documentation to verify the methodology used and the accuracy of
calculations, the Agency would not be prepared, if necessary, to justify its estimates as required.
As noted in the report, we identified instances where sub-grantees were unable to provide
support for job numbers. Further, while OMB guidance does permit reporting of estimates it
also notes that "consistent with requirements of Section 1512 (c) of the Recovery Act, recipients
are required to make corrections to erroneous or missing data submitted in prior quarters." Due
to its reliance on a reasonableness test and not requiring sub-grantees to provide supporting
documentation, the Agency was unaware of the reporting errors identified and thus, could not
make necessary corrections as required. Lastly, the Agency did not adequately address our
recommendations to require supporting documentation from the sub-grantees, verify job
calculations and the methodology were accurate, and determine whether corrections to
previously submitted data were needed. The Agency instead responded that it would reiterate to
sub-grantees' their responsibility for the accuracy of job estimates.




                                          Page 8                         Lopez and Company, LLP
                                                                           Attachment 1 (continued)

                         Section IV Schedule of Findings (Cont.)
PROJECT MANAGEMENT

IV.3    Sub-Grantee Accounting for Fixed Assets Was Not Adequate (Significant
        Deficiency)

Condition

During our review of fixed asset purchases for 13 sub-grantees selected, we noted that 3 sub-
grantees were not compliant with Federal requirements for recording and controlling fixed
assets. Specifically,
   •    One sub-grantee's fixed asset listing did not include required information such as the
        source of equipment; including grant award number, title-holder; percentage of Federal
        participation and the condition of the asset. The sub-grantee also did not perform any
        biennial physical inventories. We noted these conditions during our testing of a HVAC
        system purchase with a total cost of $123,206, of which the EECBG grant funded
        $60,303, or 49 percent.

   •    Another sub-grantee incorrectly recorded the acquisition cost of an HVAC system in its
        fixed asset ledger as $110,750 (grant-funded amount) instead of $127,539 (total cost).
        The sub-grantee corrected this error because of this examination. Further, the sub-
        recipient's fixed asset listing did not include the percentage of Federal participation of 87
        percent for this item.

   •    The third sub-grantee did not perform physical inventories of light fixtures even though
        they were included in the fixed asset records. Further, the sub-grantee's fixed asset listing
        did not include data required by regulations for assets purchased with Federal funding,
        such as a unique identification number (e.g. tag number), the funding source, the title-
        holder, the percentage of Federal participation and the condition. Our examination
        identified 14 light fixtures purchased with a total cost of $97,164, of which the EECBG
        grant funded $93,507, or 96 percent.
Federal regulations require fixed asset records to be recorded accurately, including information
disclosing the percentage of Federal participation in the cost of fixed assets. Federal regulations
also require a physical inventory of property be completed and the results reconciled with the
property records at least once every 2 years.

Cause

The sub-grantees stated that they were not aware of the Federal requirements related to fixed
assets. The Agency asserted that it included applicable Federal requirements in its contracts with
sub-grantees. However, based on a review of the contract documentation we found that specific
Federal regulations, such as 10CFR600, which stipulated fixed asset requirements, were not cited
in the contracts.




                                          Page 9                          Lopez and Company, LLP
                                                                         Attachment 1 (continued)

                         Section IV Schedule of Findings (Cont.)
Effect

The lack of biennial physical inventories may result in fixed assets being lost or stolen without
detection and possible fraud, waste and abuse. Additionally, the lack of required equipment cost
information in the sub-grantees' fixed asset records, including funding source and percentage of
Federal participation, could result in the failure to properly compute any necessary refund of
Federal funds in the event that fixed assets are either sold or disposed of. Federal guidance
requires a determination of potential reimbursement for fixed assets with a per unit fair market
value in excess of $5,000 at the time of disposal. The Agency is required to remit to the
awarding agency an amount calculated by multiplying the current market value or proceeds from
sale by the awarding agency's share of the equipment.

Recommendation

We recommend the Agency:
3.1      Develop and distribute sub-grantee guidance with respect to fixed asset management.
         The guidance should reference specific Federal requirements regarding recording assets
         and conducting physical inventories.

Management Response

The Agency did not concur with the finding because it asserted it properly included applicable
Federal statutes, regulations, and guidelines in the Special Conditions of sub-grantee contracts.
The Agency also indicated that during the course of the examination and after discussion with
the auditors, it sent each sub-grantee a property/equipment inventory reporting form and
instructions for filing the form with the Agency. The Agency was responsive to our
recommendation and noted its intention to reiterate Federal requirements concerning the
recording of assets and conducting physical inventories to all of its sub-grantees as part of its
post-grant closeout guidance.

Auditor Response

While the Agency asserted it properly flowed down applicable Federal statutes, regulations, and
guidelines in the terms and conditions of the sub-grantee grants, the Agency did not indicate how
or if it ascertained whether the sub-grantees complied with the terms and conditions of their
awards, including adherence to Federal regulations related to fixed assets. We recognize that the
Agency plans to provide closeout guidance to sub-grantees reiterating Federal requirements for
recording and inventorying fixed assets.




                                         Page 10                        Lopez and Company, LLP
                                   Attachment 1 (continued)

Section V Complete Management Response




             Page 11              Lopez and Company, LLP
                                       Attachment 1 (continued)


Section V Complete Management Response (Cont.)




                 Page 12               Lopez and Company, LLP
                      Attachment 2
MANAGEMENT COMMENTS




       Page 13
          Attachment 2 (continued)




Page 14
                                                          IG Report No. OAS-RA-13-14


                              CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
